AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
     BUREAU OF JUSTICE ASSISTANCE
           GRANT AWARDED TO
 ILLINOIS DEPARTMENT OF CORRECTIONS
         SPRINGFIELD, ILLINOIS



        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-50-10-006
            September 2010
            AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
                  BUREAU OF JUSTICE ASSISTANCE
                       GRANT AWARDED TO
              ILLINOIS DEPARTMENT OF CORRECTIONS
                     SPRINGFIELD, ILLINOIS

                          EXECUTIVE SUMMARY

        The Office of the Inspector General, Audit Division, has completed an
audit of the Serious and Violent Offender Reentry Initiative (SVORI) grant
number 2002-RE-CX-0001 in the amount of $2,365,461 (including two
supplements) awarded by the Office of Justice Programs (OJP), Bureau of
Justice Assistance (BJA) to the Illinois Department of Corrections (IDOC).
The purpose of the grant program was to support efforts to ensure public
safety and reduce victimization by helping returning offenders become
productive members of their community, by providing education, job and life
skills training, and substance abuse treatment, while carefully monitoring
their activities after release.

      With the grant funding, IDOC planned to target 200 adult male
offenders (18 through 24 years old) and 10 juveniles (14 through 17 years
old) who were released through the Illinois Reentry Going Home Project into
Chicago’s North Lawndale neighborhood and surrounding communities. The
Going Home Project was designed to provide 36 months of comprehensive
services for offenders reentering society in a three-phase process, which
included: (1) institutionally-based programs; (2) community-based
transition; and (3) community-based long-term support. Through the Going
Home Project, IDOC partnered with various service agencies to address the
challenges of recidivism, substance abuse, physical and mental health
issues, and to provide support in the areas of workforce participation,
housing, family reunification, faith-based support, and mentoring.

       OJP provides leadership to federal, state, local, and tribal justice
systems, by disseminating knowledge and practices across America, and
providing grants for the implementation of crime fighting strategies. OJP
works in partnership with the justice community to identify crime-related
challenges confronting the justice system and to provide information,
training, coordination, and innovative strategies and approaches for
addressing these challenges. BJA provides leadership and assistance to local
criminal justice programs that improve and reinforce the nation’s criminal
justice system. BJA’s goals are to reduce and prevent crime, violence, and
drug abuse and to improve the way in which the criminal justice system
functions.


                                    -i-
      IDOC was established in 1970 and during its creation, the agency
combined administration of all state prisons, juvenile centers, and adult and
juvenile parole services under one direction for the first time. As of
March 2009, IDOC operated 28 adult correction centers as well as various
work camps, boot camps, and eight adult transition centers. IDOC is
responsible for the management of about 45,000 adult inmates and the
supervision of 35,000 parolees. According to IDOC’s website, IDOC’s fiscal
year (FY) 2008 recidivism rate was 52.3 percent, down from 54.4 percent in
FY 2003. The Juvenile Division consisted of six male and one coed Illinois
Youth Centers that housed approximately 1,900 incarcerated youths.

       On July 1, 2006, the Illinois Department of Juvenile Justice (IDJJ) was
formed, which separated IDOC’s adult and juvenile corrections systems.
IDJJ is responsible for all persons who are under 17 years of age when
sentenced to imprisonment and committed to IDJJ. Subsequently, under
this organizational realignment, the target population under this grant
changed from a mix of adults and juveniles to include only juvenile
participants who were sex offenders.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, made in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures; (4) budget management and control; (5) matching
costs; (6) property management; (7) program income; (8) financial status,
progress, and metrics reports; (9) grant requirements; (10) program
performance and accomplishments; and (11) monitoring of subgrantees and
contractors. We determined that matching costs and program income were
not applicable to this grant. As shown in Table 1, IDOC was awarded a total
of $2,365,461 to implement the grant program. IDOC had drawn down
$2,211,356 as of February 4, 2010.

         Table 1. SERIOUS AND VIOLENT OFFENDER REENTRY
                 INITIATIVE GRANT AWARDED TO THE
               ILLINOIS DEPARTMENT OF CORRECTIONS
                                AWARD START        AWARD
         GRANT AWARD                                         AWARD AMOUNT
                                    DATE          END DATE
       2002-RE-CX-0001          07-01-2002        06/30/05    $ 2,000,000
         Supplement 1           07-01-2002        06/30/05        348,461
         Supplement 2           07-01-2002        06/30/09         17,000
                                      Total:                 $ 2,365,461
    Source: Office of Justice Programs


                                         - ii -
      We examined IDOC’s accounting records, budget documents, invoices
and supporting documentation as well as financial, progress, and metric
reports submitted to OJP. Our findings are summarized below.

     •     We identified significant weaknesses with IDOC’s internal
           controls. For example, we found that the Grant Accountant
           maintained unofficial financial spreadsheets that did not match
           the official accounting records. In addition, we determined that
           the FY 2008 Single Audit Report was released over a month past
           the extended due date. Moreover, there were cross-cutting
           issues identified in the statewide Single Audit Report as well as
           in the individual Financial Audit and Compliance Examination
           reports for IDOC and IDJJ.

     •     We reviewed a sample of 317 transactions totaling $1,551,039
           and identified many questionable expenditures that included
           unauthorized positions, unapproved expenditures, and
           unsupported costs, particularly contractor personnel expenses.
           As a result, we identified $943,041 in questioned costs. In
           addition, during the OJP grant close-out and reconciliation
           process, IDOC made a final drawdown that was $187,155 more
           than the amount supported by the grantee’s official accounting
           records. As a result, our total dollar-related findings amount to
           $1,130,196.

     •     We found the grantee did not adequately monitor the activities
           of the contractors it used on grant activities.

     •     The grantee drew down funds in excess of expenditures and thus
           held excess cash on hand on several occasions, which would
           have also allowed the state to potentially earn interest on excess
           federal funds.

     •     Financial Status Reports (FSR) were generally submitted on
           time; however, many were inaccurate because the expenditures
           recorded on the FSRs did not accurately reflect the expenditures
           captured within the official accounting records. We also found
           that 11 of 14 Categorical Assistance Progress Reports were
           submitted from 3 to 730 days late.

     •     We were unable to determine that the initial Going Home Project
           reduced the recidivism rate because IDOC did not maintain
           statistics on the participants. We were unable to determine if

                                   - iii -
           the goals and objectives of the second juvenile program were
           met because at the time of our fieldwork, the majority of the
           program participants were still in the program.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                   - iv -
                                  TABLE OF CONTENTS

INTRODUCTION ........................................................................ 1
    Background ........................................................................ 2
    OIG Audit Approach ............................................................. 3

FINDINGS AND RECOMMENDATIONS........................................ 5
    Internal Control Environment ................................................ 5
          Single Audit ............................................................... 5
          Financial Management System...................................... 6
    Grant Drawdowns................................................................ 8
    Grant Expenditures ............................................................ 10
          Non-personnel Expenditures........................................11
          Contractors’ Indirect Costs ..........................................13
          Contractors’ Personnel Expenditures.............................14
    Budget Management and Control ......................................... 17
    Accountable Property .......................................................... 18
    Monitoring Contractors........................................................ 20
    Reports ............................................................................. 21
          Financial Status Reports .............................................21
          Categorical Assistance Progress Reports .......................24
          Progress Metrics Reports.............................................25
    Program Performance and Accomplishments .......................... 25
    Compliance with Grant Requirements ................................... 27
    Views of Responsible Officials .............................................. 28
    Conclusion......................................................................... 28
    Recommendations .............................................................. 28

APPENDIX I:             Objectives, Scope, And Methodology ........... 30

APPENDIX II:            State of Illinois 2008 Statewide Single
                        Audit, IDOC Department–Wide Financial
                        Audit and General Office Compliance
                        Examination, and IDJJ General Office
                        Compliance Examination ............................. 32

APPENDIX III:           Expenditures Per Official Accounting and
                        Unofficial Accounting Records by OJP
                        Drawdown ................................................... 34

APPENDIX IV:            Questioned Non-Payroll Expenditures ......... 35

APPENDIX V:             Excess Expenditures Over Approved
                        Budget ......................................................... 36
APPENDIX VI:     Schedule of Dollar-Related Findings ............ 38

APPENDIX VII:    Auditee Response ........................................ 39

APPENDIX VIII: Office of Justice Programs Response ........... 41

APPENDIX IX:     Office of the Inspector General Analysis
                 and Summary of Actions Necessary to
                 Close the Report .......................................... 44
                             INTRODUCTION

       The Office of the Inspector General, Audit Division has completed an
audit of the Serious and Violent Offender Reentry Initiative (SVORI) grant
number 2002-RE-CX-0001 in the amount of $2,365,461 (including two
supplements) awarded by the Office of Justice Programs (OJP), Bureau of
Justice Assistance (BJA) to the Illinois Department of Corrections (IDOC).
The SVORI grant program was developed through a federal partnership with
the Departments of Justice, Labor, Health and Human Services, Housing and
Urban Development, Education, and Veterans Affairs, as well as the Social
Security Administration. The specific grant we reviewed was funded by the
Departments of Justice, Labor, and Health and Human Services. The
purpose of the grant was to support efforts to ensure public safety and
reduce victimization by helping returning offenders become productive
members of their community, by providing education, job and life skills
training, and substance abuse treatment, while carefully monitoring their
activities after release.

      With the grant funding, IDOC initially planned to target 200 adult male
offenders (18 through 24 years old) and 10 juveniles (14 through 17 years
old) who were released through the Illinois Reentry Going Home Project into
Chicago’s North Lawndale neighborhood and surrounding communities. The
Going Home Project was designed to provide 36 months of comprehensive
services for offenders reentering society in a three-phase process, which
included: (1) institutionally-based programs; (2) community-based
transition; and (3) community-based long-term support. Through the Going
Home Project, IDOC partnered with various service agencies to address the
challenges of recidivism, substance abuse, physical and mental health
issues, and to provide support in the areas of workforce participation,
housing, family reunification, faith-based support, and mentoring. In 2008,
the scope of the grant changed from a mix of adults and juveniles to include
only juvenile participants who were sex offenders.

      IDOC utilized several contractors to carry out the SVORI mission,
including Treatment Alternatives for Safe Communities (TASC), North
Lawndale Employment Network (NLEN), the Institute of Clinical Social
Workers (ICSW), Alternative Behavior Treatment, Children’s Home
Association, and others. The primary providers of services under this grant
were TASC and NLEN. Between 2003 and 2007, these two contractors
provided most of the services and accounted for 49 percent of the total
expenditures reimbursed with grant funds.

     TASC is a not-for-profit organization that provides behavioral health
recovery management services to individuals with substance abuse and

                                    -1-
mental health disorders. IDOC’s contractor TASC provided case
management services to parolees, which included substance abuse
assessments and referrals to substance abuse counselors in order to reduce
recidivism, maintain public safety, and to help integrate the offenders back
into the community as productive citizens.

       NLEN is a not-for-profit organization that targeted 18 through 24-year
old offenders returning to the North Lawndale community, which is located
on the west side of Chicago, Illinois. IDOC’s contractor NLEN facilitated
4-week training courses, which provided participants with job development,
anger management and transitional life skills training.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, made in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures; (4) budget management and control; (5) matching
costs; (6) property management; (7) program income; (8) financial status,
progress, and metrics reports; (9) grant requirements; (10) program
performance and accomplishments; and (11) monitoring of subgrantees and
contractors. We determined that matching costs and program income were
not applicable to this grant. As shown in Table 2, IDOC was awarded a total
of $2,365,461 to implement the grant program.

          Table 2. SERIOUS AND VIOLENT OFFENDER REENTRY
                  INITIATIVE GRANT AWARDED TO THE
                ILLINOIS DEPARTMENT OF CORRECTIONS
                              AWARD         AWARD
     GRANT AWARD                                         AWARD AMOUNT
                            START DATE     END DATE
   2002-RE-CX-0001           07-01-2002     06/30/05     $ 2,000,000
     Supplement 1            07-01-2002     06/30/05         348,461
     Supplement 2            07-01-2002     06/30/09          17,000
                                                Total:    $ 2,365,461
Source: Office of Justice Programs

Background

      OJP provides leadership to federal, state, local, and tribal justice
systems by disseminating knowledge and practices across America and
providing grants for the implementation of crime-fighting strategies. OJP
works in partnership with the justice community to identify crime-related

                                          -2-
challenges confronting the justice system and to provide information,
training, coordination, and innovative strategies and approaches for
addressing these challenges. BJA provides leadership and assistance to local
criminal justice programs that improve and reinforce the nation’s criminal
justice system. BJA’s goals are to reduce and prevent crime, violence, and
drug abuse and to improve the way in which the criminal justice system
functions.

      IDOC was established in 1970, and during its creation, it combined the
administration of all state prisons, juvenile centers, and adult and juvenile
parole services under one direction for the first time. As of March 2009,
IDOC operated 28 adult correction centers as well as various work camps,
boot camps, and eight adult transition centers. IDOC is responsible for the
management of about 45,000 adult inmates and the supervision of 35,000
parolees. According to IDOC’s website, IDOC’s fiscal year (FY) 2008
recidivism rate was 52.3 percent, down from 54.4 percent in FY 2003. The
Juvenile Division consisted of six male and one co-ed Illinois Youth Centers
that housed approximately 1,900 incarcerated youths.

       On July 1, 2006, the Illinois Department of Juvenile Justice (IDJJ) was
formed, which separated IDOC’s adult and juvenile corrections systems.
IDJJ is responsible for all persons who are under 17 years of age when
sentenced to imprisonment and committed to IDJJ.

OIG Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide, relevant Office of
Management and Budget (OMB) Circulars, and grant award documents. We
tested IDOC’s:

   •   Internal Control Environment to determine the adequacy of the
       grantee’s financial management system, accounting records, and
       policies/procedures, and to assess the risk of non-compliance with
       laws, regulations, guidelines, and terms and conditions of the grant.

   •   Grant Drawdowns to determine whether grant drawdowns were
       adequately supported and in accordance with federal requirements.

   •   Grant Expenditures to determine the accuracy, completeness, and
       allowability for costs charged to the grant.



                                     -3-
  •   Budget Management and Control to determine the amounts
      budgeted, the actual costs for each approved cost category, and to
      determine if the grantee deviated from the approved budget.

  •   Accountable Property to determine if property was correctly
      accounted for and used in accordance with the terms and conditions of
      the grant.

  •   Monitoring of Contractors to determine if contractors were used and
      if so, to assess compliance with laws, regulations, or guidelines that
      require contractor monitoring by the grantee.

  •   Financial Status, Progress, and Metric Reports to determine if the
      required reports were submitted on time and accurately reflected grant
      activity.

  •   Accomplishment of Grant Requirements and Objectives to
      determine whether the grantee met or is capable of meeting the grant
      requirements and objectives, and whether the grantee collected data
      and developed performance measures to assess accomplishment of
      the intended objectives.

      We found that IDOC was not required to contribute any local matching
funds, did not receive or generate program income, and did not award funds
to subgrantees. Therefore, we performed no testing in these areas.




                                   -4-
                  FINDINGS AND RECOMMENDATIONS

            We identified significant weaknesses in IDOC’s internal
            controls and monitoring of contractors. We also found that
            drawdowns did not always match expenditures as recorded
            in the official accounting records and many grant
            expenditures were unsupported or not identified in the
            OJP-approved grant budget. Finally, we found that reports
            were not submitted timely and contained inaccurate
            information. As a result, we identified $1,130,196 in
            dollar-related findings.

Internal Control Environment

       We reviewed the auditee’s most recent Single Audit Report, financial
management system, policies, and procedures to assess the IDOC’s risk of
non-compliance with laws, regulations, guidelines, and terms and conditions
of the grant. We also interviewed IDOC personnel to further assess risk.
We found that the grantee had a separate grants office in Springfield,
Illinois, to deal specifically with grants. We also found that the segregation
of duties over purchasing and payment of invoices was adequate. In
addition, we found that IDOC had broad written procedures for administering
grants, procuring and receiving equipment, and paying invoices. We also
determined that IDOC had guidelines for approving expenses and creating
payment vouchers. In general, however, we found that IDOC’s staff
neglected to follow federal guidelines for ensuring that costs were
adequately documented and that accounting records were supported by
source documents. This deficiency is discussed in detail in the Grant
Expenditures section of this report.

Single Audit

       According to OMB Circular A-133, recipients of federal funds are
required to have a Single Audit performed if they expend more than
$500,000 in federal funds in any year. The state of Illinois was required to
be audited annually with the report due no later than 9 months after the end
of the fiscal year. We reviewed the 2008 Illinois Statewide Single Audit
Report and found that the report was released late. The state of Illinois
fiscal year is from July 1 through June 30, which would make the Single
Audit Report due on March 30 of the following year. The Illinois Office of the
Auditor General’s staff indicated that it received an extension to June 30,
2009, but was denied another extension it had requested. We found that
the state of Illinois’ FY 2008 Single Audit Report was released on August 11,
2009, over a month past the extended due date.

                                    -5-
        Moreover, the independent auditors noted 97 findings and
62 compliance significant deficiencies in the Statewide Single Audit Report.
The report included a statewide finding applicable to all federal programs
concerning financial reporting. Specifically, the report noted that the state
of Illinois did not have an adequate process to permit the timely completion
of a complete and accurate schedule of expenditures of federal awards.

      IDOC and IDJJ were not specifically identified in the Statewide Single
Audit Report; however, findings relating to federal awards were considered
cross-cutting issues. IDOC had a department-wide financial audit conducted
for the year ended June 30, 2008. Both IDOC and IDJJ also had individual
General Office Compliance Examinations conducted for the 2 years ended
June 30, 2008. Some of the findings in those reports were similar to the
ones contained in our report, including a lack of supporting documentation
for expenditures, weaknesses in contract administration, timeliness of report
submissions, and issues related to payroll and property management. These
similar findings are identified as such in the applicable sections of our report.
Appendix II of this report contains more details regarding the statewide
single audit and financial and compliance examinations.

Financial Management System

      OMB Circular A-133 defines internal control as a process implemented
by the entity’s management and other personnel designed to provide
reasonable assurance that transactions are properly recorded and accounted
for and permit the preparation of reliable financial statements and federal
reports. The OJP Financial Guide states that the recipient is responsible for
establishing and maintaining an adequate system of accounting and internal
controls, and for ensuring that an adequate system exists for each of its
subrecipients. The OJP Financial Guide also states that direct recipients
should ensure that monitoring of organizations under contract to them is
performed in a manner that will ensure compliance with the grantee’s overall
financial management requirements.

       As previously discussed in the Single Audit section of this report, the
state of Illinois’ statewide report contained a material weakness regarding
the State’s financial reporting process. In addition, the IDOC and IDJJ
Compliance Examinations both reported findings regarding the departments’
failure to provide requested financial documentation in a timely manner or at
all and inadequate control over voucher processing.

      Our review of IDOC’s financial management system indicated that
although the grantee had written operating procedures that described the
internal controls in place over financial transactions, the grantee’s

                                      -6-
procedures were ineffective. We found that many OJP-reimbursed
expenditures were not identified in the OJP-approved grant budget, invoices
lacked sufficient supporting documentation, and the Grant Accountant
maintained unofficial financial spreadsheets that did not match the official
accounting records. These deficiencies are explained in more detail below.

      Failure to consistently check expenses against OJP-approved budget -
The Grant Accountant at the IDOC location in Springfield, Illinois, stated that
she received all grant-related invoices from the Grant Administrator in
St. Charles, Illinois, who confirmed that the invoices reflected services
rendered and marked the invoices as approved for payment. The Grant
Accountant stated that she reviewed the invoices to ensure the invoices
included the Grant Administrator’s approval and determined whether the
expenditures were allowable according to the grant budget, contract terms,
and IDOC procurement regulations. Nevertheless, during our review of
grant expenditures, we identified several expenditures that were paid by the
Grant Accountant but were not included in the OJP-approved grant budget.
These unapproved transactions are discussed in more detail in the Grant
Expenditures section of this report.

      Failure to obtain sufficient supporting documentation - Our grant
expenditure testing also revealed that several invoices submitted for
reimbursement were not accompanied by adequate supporting
documentation. Most of the contractors’ invoices were submitted to the
grantee with no receipts or evidence that the expenses billed were actually
incurred by the contractors. Moreover, the few invoices from the TASC
contractor that did contain some supporting documentation were often
incorrect. For example, we found TASC included the same support for
equipment billed in February 2004 and again in September 2004.
Nevertheless, IDOC approved both invoices and reimbursed TASC on both
occasions for the full amount requested.

      We spoke to the current Grant Administrator about the lack of
supporting documentation. She explained that she ran into difficulty when
attempting to get contractors to submit supporting timesheets and accurate
invoices. She stated that on several occasions she had to adjust invoices
and correct errors when contractors billed for services that were not
performed. The Grant Administrator also stated that she began conducting
more frequent meetings with the contractors in an attempt to ensure the
program was being implemented and monitored more effectively. Although
the current Grant Administrator became more involved with monitoring the
contractors’ activities, the grantee did not comply with OJP guidelines to
ensure that grant expenditures were properly supported. Our transaction
testing, which is discussed in the Grant Expenditure section of this report,

                                     -7-
shows that contractors’ expenditures were not always supported and these
results further demonstrate that the grantee’s monitoring activities were not
sufficient.

      Accounting Records - The OJP Financial Guide states that grantees are
required to establish and maintain accounting systems and financial records
to accurately account for funds awarded to them. An IDOC official explained
that the SVORI grant accounting records were maintained in IDOC’s official
accounting system. The IDOC official further explained that the SVORI grant
was identified by specific codes and a subaccount title in the official
accounting system, and the accounting system reports supported that
statement. We did not find evidence of commingling with other grants.

       However, in addition to these official records, the Grant Accountant
also maintained separate spreadsheets to monitor budgeted amounts,
expenditures, and drawdown requests for the audited grant. 1 The
Accountant used the spreadsheets to determine the amount of funds to draw
down. The Accountant informed us that she reconciled her records to the
official records every quarter using a reconciliation spreadsheet. However,
we found that the Accountant’s records did not always reconcile to the
official accounting records. On several occasions, we found that the timing
of transactions as recorded in the grantee’s unofficial accounting records did
not coincide with the official accounting records. We used the official
accounting records to conduct all of our testing.

Grant Drawdowns

      The OJP Financial Guide establishes methods through which the
awarding agency makes payments to grantees. The methods and
procedures for payment established by the federal government are designed
to minimize the time elapsed between the transfer of funds by the
government and the disbursement of funds by the grantee. Recipients
should time drawdown requests to ensure that federal cash on hand is the
minimum needed to pay for actual or anticipated costs within 10 days.
Further, grantees are not permitted to incur additional obligations after the
end of the grant. Any funds that remain unobligated by grantees at the end
of the grant award period will lapse and revert to the awarding agency.

      OJP awarded $2,365,461 for grant number 2002-RE-CX-0001 (with
supplements) and IDOC had drawn down a total of $2,006,159 as of July 30,


       1
         The Grant Accountant’s spreadsheets are also referred to as the “unofficial
accounting records” in this report.


                                            -8-
2009. The Grant Accountant stated that drawdowns were requested on a
reimbursement basis based upon actual expenditures as recorded in her
unofficial accounting records. We reviewed the Accountant’s unofficial
accounting records and attempted to reconcile the amounts drawn down to
these records to no avail. We found that the unofficial accounting records
included transactions that were not recorded in the official accounting
records, one drawdown that was not identified in OJP’s grant drawdown
records, and dates of transactions that were different from the official
accounting records. As a result, we did not place reliance on the unofficial
accounting records that we were told were used to request draw down
amounts. Appendix III illustrates the differences between the expenditures
as recorded in the official accounting records to the unofficial accounting
records by drawdown.

      IDOC’s official accounting records indicated it incurred $2,024,200 in
grant expenditures as of July 31, 2009. Because OJP had reimbursed IDOC
a total of $2,006,159, grant-related expenditures exceeded the amount
drawn down by $18,041.

      To determine if the grantee’s drawdown activities were supported by
the grant accounting records, we compared each of the drawdown dates and
cumulative drawdown amounts reported by OJP to the grantee’s cumulative
expenditures recorded in the official accounting system for each drawdown
period. We determined that drawdowns did not reconcile to expenditures on
many occasions. Although the grantee’s cumulative expenditures at the end
of the grant period exceeded cumulative drawdowns by $18,041, we believe
the grantee held excess cash on hand on several occasions during the grant
period, which would have also allowed the state to potentially earn interest
on the excess federal funds. IDOC did not account for any interest earned
specific to the SVORI grant; interest is earned on the entire State
Treasurer’s portfolio and is not allocated to distinct accounts. In addition,
the Statewide Single Audit Report had a finding regarding the failure to draw
down funds only for immediate cash needs.

      The Grant Accountant explained that discrepancies between drawdown
amounts and expenditures were mostly due to differences in the timing of
transactions recorded in the general ledger and her unofficial grant records.
She also told us that IDOC refunded $71,706 to OJP on October 21, 2005, to
correct drawdowns requested in excess of approved expenditures. She
further explained that $45,730 of grant payroll expenditures for one
personal service contractor were erroneously appropriated to the wrong fund
during the beginning of the grant, which contributed to some of the
discrepancies we found between drawdowns and expenditures. The
Accountant also told us that because the $45,730 posting error was

                                    -9-
identified much later, an adjustment was not made to the official accounting
records, but the expenditure was taken into account when requesting
drawdowns because the transaction was included in her unofficial accounting
records.

      In November 2009, OJP conducted its grant close-out reconciliation
and IDOC later submitted a revised financial status report reporting
cumulative total federal outlays of $2,211,356. Based on this, OJP approved
and IDOC drew down an additional $205,196 in February 2010. OJP then
deobligated the remaining $154,105 and closed out the award. As discussed
above, we could only account for $18,041 of grant expenditures recorded in
the grantee’s official accounting records that had not been drawn down as of
July 31, 2009, one month after the end date of the award. Thus, we could
not confirm the validity of the amounts included on IDOC’s revised financial
status report. As a result, we question the balance of $187,155 ($205,196
minus $18,041) drawn down during the OJP close-out reconciliation process
but not supported by the grant accounting records as of July 31, 2009.

Grant Expenditures

      IDOC was awarded $2,365,461 and as previously stated had drawn
down $2,006,159 from OJP as of July 30, 2009. We reviewed IDOC’s official
accounting records and determined IDOC charged $2,024,200 towards the
SVORI grant as of July 31, 2009. We selected a judgmental sample of
317 of these transactions for testing. To determine if the expenditures were
allowable, we compared the expenditures to the OJP-approved grant budget
and permissible uses of funds outlined in the OJP Financial Guide. To
determine if the sampled expenditures were supported, we reviewed
accounting system data including payment vouchers and supporting
documents such as invoices, receipts, and timesheets. In addition to our
fieldwork conducted at IDOC, we went on site to contractors TASC and NLEN
to review supporting documents for the invoices they submitted to IDOC.

     The 317 sampled transactions totaled $1,551,039. We found that
$607,998 was allowable because the expenditures were charged to
OJP-approved budget cost categories and were adequately supported. The
remaining $943,041 in reviewed expenditures included costs for
unauthorized positions, unapproved expenditures, and unsupported costs
under the consultant/contractor cost category. The following table
summarizes IDOC’s grant costs and our testing results.




                                   - 10 -
     TABLE 3. SUMMARY OF TESTING RESULTS AND GRANT COSTS
                      AS OF JULY 31, 2009
                                                                     AUDIT SAMPLE
                            OJP-APPROVED       AMOUNT
    COST CATEGORY              BUDGET        CHARGED TO
                             (GAN NO. 20)    THE AWARD                         QUESTIONED
                                                             AMOUNT TESTED
                                                                                 COSTS

 Personnel                              $0              $0                $0               $0
 Fringe Benefits                         0               0                 0                0
 Travel                             36,171          42,861             4,087                0
 Equipment                           6,794           6,879             3,632                0
 Supplies                            3,845           2,836               567                0
 Construction                            0               0                 0                0
 Consultants/Contracts           2,286,358       1,950,079         1,542,139          943,041
 Other                              32,293          21,545               614                0
 Indirect Costs                          0               0                 0                0
                   Totals      $2,365,461      $2,024,200        $1,551,039         $943,041
Source: OJP Financial Clearance Memoranda, IDOC’s accounting records, OIG calculations

      Below, we discuss our testing of non-personnel direct costs from IDOC,
NLEN, TASC, and other contractors. Following that discussion, we report our
testing of contractors’ indirect cost and payroll and transactions.

Non-personnel Expenditures

      The OJP-approved budget included $79,103 for IDOC’s direct costs,
including $36,171 for travel, $6,794 for equipment, $3,845 for supplies, and
$32,293 for other. We tested $8,900 of IDOC’s $79,103 direct costs and
found that all $8,900 was allowable and properly supported.

      The OJP-approved budget included $2,286,358 for contractual
expenditures. IDOC contracted with NLEN, TASC, and others for activities
related to the audited grant. The results of our testing of non-personnel
contractor costs billed to the audited grant are summarized below.

      NLEN - OJP approved $56,200 that was allocated to NLEN
expenditures for participant training and off-site room rental. The approved
budget also identified additional contractors by name and service to be
provided, but IDOC did not use those contractors and instead used NLEN.
According to the OJP budget, the contractors were to be used for vocational
placements ($199,500), job placements ($15,000), and drug testing
($9,818). In addition, the OJP budget included costs that were to be
expended by IDOC, but were instead services performed by NLEN. IDOC
was approved for travel ($36,171), transportation ($15,120), clothing
incentive ($10,200), and program participant savings accounts ($5,000).
We did not take exception to the fact that NLEN provided these services


                                             - 11 -
rather than the other contractors or IDOC because NLEN was an approved
contractor and OJP had approved the types of costs incurred. In total, NLEN
was reimbursed $137,571 for non-personnel expenditures and we found that
$40,682 was authorized and supported. However, the remaining $96,889
was unsupported because neither IDOC nor NLEN could provide adequate
documentation to support the expenditure of funds. In addition, $17,644 of
the $96,889 was also unapproved because NLEN charged equipment and job
center office rental payments to IDOC each time IDOC held meetings at
NLEN. These costs were not included in the OJP-approved budget.
Therefore, we questioned these costs. A breakdown of the specific
unapproved and unsupported expenses can be found in Appendix IV.

       TASC - OJP approved $10,814 for TASC non-personnel expenditures,
including travel ($3,864) equipment ($3,350), and supplies ($3,600). 2 In
total, TASC was reimbursed $34,132 for its non-personnel expenditures. For
travel, equipment, and supplies, TASC exceeded the OJP-approved budget
by $18,650. Of the $34,132 reimbursed for non-personnel expenditures, we
found that $20,100 was properly supported. However, the remaining
$14,032 was unallowable because the costs were either unsupported or
unapproved. For the unsupported costs neither IDOC nor TASC could
provide us with adequate documentation. In addition, some of the
expenditures were unapproved because TASC charged training and
recruitment which were not included in the OJP-approved budget. 3

      Other Contractors - OJP approved $1,012,414 for services to be
provided by contractors other than NLEN and TASC. We tested $187,786 in
non-personnel expenses from other contractors that provided substance
abuse treatment and residential services for the program. We found that
$146,340 of the amount was approved and properly supported. The
remaining $41,446 was not supported by adequate documentation.

      The Single Audit Report for the state of Illinois identified the
inadequate or lack of on-site monitoring of subrecipients of federal awards
as a material weakness. In addition, the IDOC department-wide financial
audit and compliance examination included findings regarding weaknesses in


       2
           OJP also approved indirect costs for TASC which are discussed in the following
section.
       3
          The unsupported expenditures totaled $13,296 and the unapproved expenditures
totaled $4,668. These expenditures do not add up to the $14,032 in unallowable
expenditures because several expenditures were unsupported and unapproved. Instead of
double counting these expenditures we counted each one once selecting the higher of the two
amounts to come up with the $14,032 total as indicated in Appendix IV, Questioned Non-
Payroll Expenditures.

                                             - 12 -
contract administration, inadequate accounting records, and failure to
provide or maintain supporting documentation for expenditures. Finally,
IDJJ’s compliance examination included findings regarding weaknesses in
contract administration and inadequate control over voucher processing.

      In summary, we determined OJP approved a total of $1,444,947 for
expenditures excluding contractors’ personnel and indirect costs. We tested
non-payroll direct cost expenditures totaling $368,389 and determined that
$216,022 was approved and properly supported. The remaining $152,367
was unallowable because it consisted of $22,312 in costs not approved by
OJP, $18,650 in costs in excess of the approved budget amounts, and
$151,631 in unsupported expenditures. 4

Contractors’ Indirect Costs

      The OJP Financial Clearance Memoranda did not approve indirect costs
specifically for IDOC. However, shown in the “Consultants/Contracts”
budget category of Supplement 1 was $7,481 of indirect costs approved for
TASC. During the course of the grant, TASC invoiced IDOC for $90,136 in
indirect costs, which IDOC paid using grant funds.

      IDOC received invoices from TASC and approved the charges based on
a predetermined rate. TASC simply billed IDOC each month for 1/12th of the
overall contract amount. TASC did not adjust for actual expenses as
required by its contracts with IDOC. 5 In addition, when calculating indirect
costs, TASC did not deduct office equipment from its indirect costs, which
was required by the contracts, and did not always use the approved rate.

      As stipulated in the OJP-approved budget, TASC should have only been
reimbursed up to $7,481 for indirect costs. The remaining $82,655 was an
unallowable expense because it far exceeded the OJP-approved budgeted
amount for indirect costs attributable to TASC. The OJP Financial Guide
states that a Grant Adjustment Notice (GAN) is used to request project
changes and corrections for any programmatic, administrative, or financial

       4
         The unapproved expenditures, expenditures reimbursed in excess of approved
amounts, and the unsupported expenditures do not add up to the $152,367 in unallowable
expenditures because several expenditures were unsupported as well as over the approved
budget or unapproved. Instead of double counting these expenditures we counted each one
once to come up with the $152,367 total as indicated in Appendix IV, Questioned Non-Payroll
Expenditures.
       5
          The contract between TASC and IDOC states that compensation will be billed
monthly and adjustments will be made monthly based upon actual expenditures. The
contract further states that monthly compensation shall be calculated on 1/12th of the annual
program cost and 1/12th of the annual staffing costs.

                                           - 13 -
change associated with a grant award. We did not find evidence that the
grantee received written approval from OJP for the excess amount
reimbursed to TASC for indirect costs. Therefore, we question $82,655. 6

Contractors’ Personnel Expenditures

       The OJP Financial Guide specifically states that personnel and payroll
records shall include the time and attendance reports for all individuals
reimbursed under the award. Time and effort reports are also required for
consultants. In addition, OMB Circular A-87 states costs must be adequately
documented to be allowable under federal awards. Further, charges to
federal awards for salaries and wages will be based on documented payrolls
approved by a responsible official. Budget estimates or other distribution
percentages determined before the services are performed do not qualify as
support for charges to federal awards but may be used for interim
accounting purposes under certain circumstances. Where employees are
expected to work solely on a single federal award or cost objective, charges
for their salaries and wages will be supported by periodic certifications that
are prepared at least semi-annually and signed by the employee or
supervisory official. OMB Circular A-87 further states where employees work
on multiple activities or cost objectives or federal and non-federal awards, a
distribution of their salaries will be supported by personnel activity reports or
another approved substitute system. NLEN employees worked on multiple
activities. In contrast, TASC and the other contractors’ employees worked
solely on the IDOC grant. 7

      We did not find any time certifications and very few personal activity
reports at IDOC for TASC or NLEN employees, and there was no indication of
another approved substitute system. The independent IDOC and IDJJ
Compliance Examination reports both had findings regarding lack of
supporting documentation, timesheets not submitted in compliance with the
State Officials and Employees Ethics Act, failure to maintain required
personnel and payroll documentation, and inadequate control over voucher
processing.

      We were provided time and effort reports while on-site at NLEN and
TASC. In brief, TASC and NLEN charged IDOC for positions not approved by
OJP, and IDOC used grant funds to reimburse the contractors. We also
found that in general, TASC and NLEN did not submit time and effort reports

       6
           This amount is included in Appendix V.
       7
           IDOC entered into personal service contracts with four individuals to provide
program assistance and supervision to ensure the reentry grant program was operating
efficiently and in accordance with grant guidelines.

                                            - 14 -
or semi-annual certifications with its invoices to IDOC. We believe TASC and
NLEN contractors should have been reimbursed under the contracts entered
into with IDOC for valid and supported payroll expenses, but IDOC should
not have requested OJP reimbursement for costs not identified in the
OJP-approved budget.

      The following table summarizes the contractor payroll costs charged to
the grant and the allowable and unallowable costs. The table also shows
unsupported costs.

                  Table 4. CONTRACTOR PAYROLL COSTS
                                                           OTHER
  DESCRIPTION          TASC              NLEN                                TOTAL
                                                       CONTRACTORS
 Amount
 Authorized for
                        $316,903          $291,164          $304,966          $913,033
 OJP Approved
 Positions
 Amount
 Charged to the         $235,217          $491,204          $366,092        $1,092,513
 Award
 Amount
 Supported for
                         $58,184          $142,063          $184,247          $384,494
 Approved
 Positions
 Difference
 (Questioned            $177,033          $349,141          $181,845          $708,019
 Costs)
 Approved
 Position
                         $83,980                 $0         $105,134          $189,114
 Payroll
 Unsupported
 Unauthorized
 Positions
                         $52,835          $188,680           $68,074          $309,589
 Payroll
 Supported
 Unauthorized
 Positions
                         $40,218          $160,461             $8,637         $209,316
 Payroll
 Unsupported
 Total Amount
                        $177,033          $349,141          $181,845          $708,019
 Questioned
Source: OIG Analysis of OJP Financial Clearance Memoranda; IDOC Official Accounting
Records; and TASC, NLEN, and other contractors’ time and effort reports

      OJP approved a total of $913,033 for salaries and benefits for the
contractors TASC, NLEN, and other contractors. In turn, contractors TASC,

                                        - 15 -
NLEN, and four other personal service contractors invoiced $1,092,513 to
IDOC and IDOC billed this amount to the OJP grant. We tested the entire
amount and determined $384,494 was allowable and adequately supported
for OJP-approved positions. We found that $708,019 was unallowable
because $518,905 ($309,589 plus $209,316) was reimbursed for
unauthorized positions and $189,114 was unsupported. Of the $518,905,
$209,316 was also unsupported for a total of $398,430 in unsupported
costs. These expenditures are discussed in more detail by contractor below
and include the figures reported in Table 4.

       TASC – OJP approved $316,903 for TASC salaries and fringe benefits
for specific positions. IDOC requested and received $235,217 from OJP for
payroll expenditures reported by TASC, of which $58,184 was allowable and
adequately supported. However, we question the remaining $177,033
because it included $93,053 ($52,835 plus $40,218) for two unauthorized
supervisor positions and $83,980 that was not supported by adequate
documentation. Further, of the $93,053 charged for the unauthorized
positions, $40,218 was also unsupported.

      NLEN – OJP approved $291,164 for NLEN salaries and fringe benefits
for specific positions. IDOC requested and received $491,204 in
reimbursements for NLEN salaries and fringe benefits, of which $142,063
was for OJP-approved positions and we found the charges were supported.
We question the remaining $349,141 ($188,680 plus $160,461) because it
was used for positions not approved by OJP. In addition, $160,461 of that
amount was not adequately supported.

      Other Contractors – OJP approved $304,966 for two personal service
contract positions, including fringe benefits. IDOC requested and received
$366,092 in reimbursement for related salaries and fringe benefits, of which
$184,247 was for OJP-approved positions, and we found the charges were
supported. However, we question the remaining $181,845 that included
$105,134 that was not supported by adequate documentation and $76,711
($68,074 plus $8,637) for positions not approved by OJP. We determined
that $68,074 of the $76,711 was supported by timesheets and $8,637 was
not supported by timesheet documentation.

      During the exit conference, IDOC officials asked if there was a specific
timeframe during which many of the unsupported or unapproved contractor
costs occurred. We replied that the majority of unsupported costs occurred
at the beginning of the grant through the end of the Going Home Program in
2007. The Grant Administrator also stated that it was believed that a former
NLEN employee destroyed some documents and took other information
related to the grant with him when he left NLEN. During the audit, NLEN

                                    - 16 -
officials had also provided us with the same explanation. At the exit
conference, an IDOC official agreed to follow-up on the unsupported costs to
determine if additional documentation could be found.

Budget Management and Control

      The OJP Financial Guide states that movement of dollars between
approved budget categories is allowed up to 10 percent of the total budget
amount provided there is no change in project scope. When the cumulative
changes exceed 10 percent of the total award amount or change the scope
of the project, prior approval from the awarding agency is required. IDOC
changed the scope of the grant, modified the budget, and received prior
approval from OJP.

       As shown in Table 5, IDOC’s original approved budget contained
amounts for travel, equipment, supplies, and other categories while the
majority of funds were approved for contractual expenditures. Travel and
equipment were the only categories where it initially appeared the grantee
exceeded the approved budget by nominal amounts in comparison to the
total approved budget. Overall, the total grant expenditures as reported in
IDOC’s accounting system appeared to be less than the total grant amount
budgeted.




                                   - 17 -
                  TABLE 5. BUDGET MANAGEMENT AND CONTROL
                                                                                                         AMOUNT
                                            COMBINED                                    ACTUAL COST     EXCEEDING
                              ORIGINAL                                   COMBINED
    COST CATEGORY                          SUPPLEMENTAL    GAN NO. 20                  AS OF JULY 31,      THE
                            GRANT BUDGET                                TOTAL BUDGET
                                             BUDGETS                                       2009         CATEGORY
                                                                                                         BUDGET

            Personnel                  -               -                           -                -            -

     Fringe Benefits                   -               -                           -                -            -

                 Travel         $24,385        $17,000       ($5,214)       $36,171        $42,861      ($6,690)

           Equipment            $11,851                      ($5,057)        $6,794          $6,879        ($85)

              Supplies           $5,610                      ($1,765)        $3,845          $2,836              -

        Construction                   -               -            -              -                -            -
  Contract/Consultant
          Includes TASC:
          Travel - $1,488    $1,786,759       $348,461      $151,138     $2,286,358     $1,950,079               -
       Equipment $3,350
        Supplies - $3,600
  Indirect Costs - $7,481

                 Other         $171,395                -   ($139,102)       $32,293        $21,545               -

 TOTAL DIRECT COSTS          $2,000,000       $365,461              -    $2,365,461     $2,024,200               -

       Indirect Costs                  -               -            -              -

               TOTAL        $2,000,000       $365,461               -   $2,365,461     $2,024,200        $6,775

      FEDERAL FUNDS         $2,000,000       $365,461                   $2,365,461     $2,024,200                -

        LOCAL MATCH                    -               -                           -                -            -


Source: Office of Justice Programs and IDOC

      However, upon further review of the specific details under the
Contract/Consultant cost category, it appears that although IDOC’s total
contractor costs did not exceed the overall amount budgeted to that cost
category, IDOC contractor costs often exceeded amounts specifically
budgeted to individual contractors or for specific types of costs, such as
contractor personnel or indirect costs. Appendix V contains a summary of
these costs. We have questioned the majority of these transactions as
unapproved costs in the Grant Expenditures section of this report. IDOC did
not notify OJP of the changes for specific cost categories within its contractor
costs and did not notify OJP of its intent to use additional contractors.

Accountable Property

      OMB Circular A-133 requires grantees to implement controls to ensure
property and equipment purchased with federal funds are properly
safeguarded. Further, the OJP Financial Guide requires physical inventories
should be conducted every 2 years and reconciled against accounting

                                                       - 18 -
records. IDOC’s Compliance Examination report included a material
weakness related to inaccurate and inadequate property/fixed asset
recordkeeping and inadequate controls over inventory. In addition, the IDJJ
Compliance Examination report included a finding related to inaccurate and
inadequate equipment and capital asset recordkeeping. As discussed below,
we identified problems with IDOC’s property management.

       We reviewed the grantee’s official accounting records to determine
what funds were used for equipment transactions, and we reviewed
contractor invoices to obtain descriptions and serial numbers for items
purchased. According to its official accounting records, IDOC spent $6,879
in grant funds for equipment. In addition, according to Supplement 1, TASC
was approved $3,350 for equipment and we found that TASC spent $8,487
for this purpose. The OJP-approved budgets did not show any funds for
equipment for NLEN, but this contractor was reimbursed $1,056 for its
equipment purchases. IDOC’s contracts with TASC required the contractor
to turn over to IDOC any equipment purchased at the end of the contract.

      We found that IDOC's property records were incomplete and
inaccurate because IDOC did not record in its inventory report all
accountable property purchased with grant funding. IDOC provided us with
a property inventory report for grant number 2002-RE-CX-0001. The report
included 13 accountable property items. In addition to reviewing this list,
we reviewed grant invoices to identify any additional property items. We
found that a total of 20 accountable items valued at $13,800 were
purchased using grant funds. Therefore, seven items were not on IDOC’s
property report and were not identified as federally funded. For example:

•    NLEN was reimbursed $1,056 by IDOC for one computer purchased by
     an NLEN employee. However, the documentation attached to the
     invoice was not from a vendor and did not support the purchase of a
     computer. NLEN could not provide any other evidence that a
     computer was actually purchased, but did provide evidence that it
     turned over a computer to IDOC. However, we were unable to verify
     the existence of this computer and it did not appear to be listed on
     IDOC’s property listing.

•    TASC was reimbursed $1,802 for the cost of two computers. TASC’s
     supporting documentation listed two computer serial numbers but
     neither were turned over to IDOC at the end of the grant or reported
     on IDOC’s inventory report. We were unable to verify the existence of
     the two computers.



                                   - 19 -
      Finally, we physically verified 7 of the 20 accountable items located at
the IDOC facility in St. Charles, Illinois. Due to the lack of known identifiers
such as serial numbers and custodians, we did not attempt to physically
inspect the remaining items. In general, we questioned any unallowable
property expenditures selected for testing in the Grant Expenditures section
of the report.

Monitoring Contractors

       The OJP Financial Guide states that direct recipients (IDOC) should
ensure that monitoring of organizations under contract to them is performed
in a manner that will ensure compliance with their overall financial
management requirements. IDOC utilized the services of several contractors
with the Going Home Project. IDOC contracted with three main contractors
who provided case management, social services, employment assistance,
and anger management services for the program participants. 8 The
remaining contractors were used to provide transitional housing for program
participants for the Going Home Project and juvenile program. Four other
contractors were also used to manage the Going Home Project. The four
contractors submitted time and attendance reports to IDOC.

       Many of the discrepancies we found within our testing occurred
because IDOC failed to ensure contractors were in compliance with financial
management requirements. IDOC did not ensure expenditures were
adequately supported or allowable under the approved grant budget. In
addition, IDOC’s contracts with TASC and NLEN allowed for expenditures
that were not authorized in the approved OJP budget. In other instances
IDOC reimbursed contractors for expenses that were not based on actual
expenditures. For example, TASC billed IDOC and was reimbursed for 1/12th
of its contractual rates regardless of the amount of expenses the
organization actually incurred. During our analysis we found that TASC was
reimbursed for more than their actual expenses in almost every cost
category.

      We also found that the grantee did not evaluate the contractors'
financial management systems as required by the OJP Financial Guide and
did not formally evaluate the contractors’ processes and procedures for
administering the contracts and adhering to their terms and conditions.

     According to the current Grant Administrator, the original Grant
Administrator would not allow her to question the contractors regarding the

       8
         In addition to the previously discussed contractors TASC and NLEN, IDOC also
contracted with the Institute for Clinical Social Workers for these types of services.

                                          - 20 -
financial aspects of the award. When the current Grant Administrator took
over the management of the award, she held weekly meetings with the
Going Home Project contractors to review program participant case files and
to review expenditures to ensure expenses were fully supported and
justified. The current Grant Administrator maintained all records for the
juvenile program. However, it was up to each Parole and Placement
Resource Unit to monitor the transitional housing contractors, which are
located throughout the state of Illinois. The current Grant Administrator
stated that she had very little contact with the Parole and Placement
Resource Units, but they submitted reports regarding the juveniles’ status
and progress at the transitional housing units.

      Based on the weaknesses identified throughout this report, we believe
the grantee did not monitor its contractors in an effective manner. We
recommend OJP work with IDOC if future awards are awarded to ensure
guidelines are developed and implemented to adequately and effectively
monitor contractors.

Reports

       We reviewed IDOC’s Financial Status Reports (FSRs), Categorical
Assistance Progress Reports (progress reports), and Progress Metrics Reports
(metrics reports) for grant number 2002-RE-CX-0001. The state of Illinois’
Single Audit Report had a statewide finding that it did not have an adequate
process in place to permit the timely completion of a complete and accurate
schedule of expenditures of federal awards. In addition, IDOC’s Compliance
Examination report included two findings regarding inadequate controls over
grant reporting and failure to timely prepare and submit required reports. As
discussed in detail below, we identified weaknesses in IDOC’s reporting
activities.

Financial Status Reports

      According to the OJP Financial Guide, FSRs should be submitted within
45 days of the end of the calendar quarter. Funds or future awards may be
withheld if reports are not submitted or if reports are submitted late. We
reviewed all 28 of the FSRs submitted during the award. Generally, we
found the reports to be submitted in a timely manner. However, as shown
in Table 6, there were four reporting periods where the reports were late.




                                    - 21 -
        TABLE 6. LATE FINANCIAL STATUS REPORT HISTORY
           REPORT PERIOD    Date     DATE
           FROM - TO DATE   Due    SUBMITTED DAYS LATE
          10/1/2002-12/31/2002    2/14/2003    2/18/2003         4
           1/1/2003-3/31/2003     5/15/2003     7/3/2003        49
           4/1/2006-6/30/2006     8/14/2006   10/12/2006        59
          10/1/2007-12/31/2007    2/14/2008     3/3/2008        18
        Source: OIG Analysis of IDOC FSRs and OJP FSR Submission Data

      We also reviewed all 28 FSRs for accuracy and found that while some
of the reports accurately reflected the grant-funded expenditures for the
reporting period, many of the FSRs did not accurately reflect expenditures,
as noted in Table 7. As previously reported, the IDOC Grant Accountant
stated that $45,730 in payroll expenses were erroneously paid from another
fund during the period covered by the June 30, 2003, report. This error did
not affect just one FSR, but was carried forward to following periods.




                                     - 22 -
            TABLE 7. FINANCIAL STATUS REPORT ACCURACY 9
                                                                                         DIFFERENCE
                                                                                          BETWEEN
                                 GRANT         DIFFERENCE
                                                                                         CUMULATIVE
       FSR REPORT  GRANT        EXPENSES        BETWEEN        CUMULATIVE   CUMULATIVE
FSR                                                                                       SPENDING
       PERIOD END EXPENSES        PER            FSRS &         SPENDING    ACCOUNTING
No.                                                                                      PERFSR AND
          DATE    PER FSRS     ACCOUNTING      ACCOUNTING       PER FSR       RECORD
                                                                                         CUMULATIVE
                                RECORDS         RECORDS
                                                                                         ACCOUNTING
                                                                                          RECORDS

  1    9/30/2002          $0             $0              $0            $0          $0               0
  2    12/31/2002      2,796        2,796                 0         2,796        2,796              0
  3    3/31/2003           0             0                0         2,796        2,796              0
  4    6/30/2003      69,460       23,600          45,860          72,256       26,396          45,860
  5    9/30/2003      21,246        1,240          20,007          93,503       27,636          65,866
  6    12/31/2003     49,607       43,891              5,716      143,110       71,527          71,583
  7    3/31/2004      92,339      115,204        (22,865)         235,449      186,732          48,718
  8    6/30/2004      90,460       93,318         (2,858)         325,910      280,050          45,860
  9    9/30/2004      67,669       67,669                 0       393,579      347,719          45,860
 10    12/31/2004     81,924       81,924                 0       475,503      429,643          45,860
 11    3/31/2005      65,350       65,350                 0       540,853      494,993          45,860
 12    6/30/2005      60,042       60,042                 0       600,895      555,035          45,860
 13    9/30/2005      74,758       74,758                 0       675,653      629,793          45,860
 14    12/31/2005     73,350       73,350                 0       749,002      703,143          45,860
 15    3/31/2006     141,613      141,613                 0       890,615      844,755          45,860
 16    6/30/2006     186,929      186,929                 0     1,077,544    1,031,684          45,860
 17    9/30/2006      88,377       92,005         (3,627)       1,165,921    1,123,689          42,232
 18    12/31/2006    141,147      137,519              3,627    1,307,068    1,261,208          45,860
 19    3/31/2007     153,417      153,418                (1)    1,460,485    1,414,626          45,860
 20    6/30/2007     102,014       47,933          54,081       1,562,500    1,462,359         100,141
 21    9/30/2007           0      107,578       (107,578)       1,562,500    1,570,137         (7,637)
 22    12/31/2007     50,293       27,643          22,649       1,612,793    1,570,227          42,566
 23    3/31/2008         321          321                 0     1,613,113    1,570,547          42,566
 24    6/30/2008           0             0                0     1,613,113    1,570,423          42,690
 25    9/30/2008       5,527        5,527                 0     1,618,640    1,576,074          42,566
 26    12/31/2008     21,506       21,506                 0     1,640,146    1,597,580          42,566
 27    3/31/2009     170,691      170,690                 0     1,810,837    1,785,030          25,806
 28    6/30/2009    $383,759     $119,634        $264,126      $2,194,596   $1,904,864     $289,732

Source: OIG Analysis of IDOC FSRs and Accounting Records




       9
        Differences in total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding may differ from the sum of the individual numbers rounded.

                                              - 23 -
Categorical Assistance Progress Reports

        According to the OJP Financial Guide, progress reports are due
semi-annually on January 30 and July 30. The OJP Grants Management
System (GMS) included a schedule of progress report due dates with a grace
period. As seen in Table 8, there were 14 semi-annual progress reports due
for the audited grant. We found 3 reports were submitted on time and the
remaining 11 reports were late from 3 to 730 days. As a result, OJP held or
froze funding four times until the delinquent reports were submitted. We
were unable to determine why several progress reports between July 2002
and June 2007 were submitted late because they were the responsibility of
the original Grant Administrator, and he was no longer employed by the state
of Illinois. We discussed with the current Grant Administrator the untimely
reports submitted after June 2007, and she said the untimeliness was a
matter of her time management.

           TABLE 8. CATEGORICAL ASSISTANCE PROGRESS
                        REPORT HISTORY
                                                   OVERDUE
                                                 STATUS DATE
    RPT        REPORT PERIOD                     (REPORT DUE     DATE       DAYS
                                    Due Date
    NO.       FROM – TO DATES                      DATE +      SUBMITTED    LATE
                                                    GRACE
                                                   PERIOD
     1    07/01/2002 - 12/31/2002   01/30/2003   02/14/2003    04/08/2003    53
     2    01/01/2003 – 06/30/2003   07/30/2003   08/14/2003    08/07/2003    0
     3    07/01/2003 – 12/31/2003   01/30/2004   02/14/2004    02/20/2004    6
     4    01/01/2004 – 06/30/2004   07/30/2004   08/14/2004    07/30/2004    0
     5    07/01/2004 – 12/31/2004   01/30/2005   02/14/2005    02/14/2007   730
     6    01/01/2005 – 06/30/2005   07/30/2005   08/14/2005    06/28/2007   683
     7    07/01/2005 – 12/31/2005   01/30/2006   02/14/2006    06/28/2007   499
     8    01/01/2006 – 06/30/2006   07/30/2006   08/14/2006    07/11/2007   331
     9    07/01/2006 – 12/21/2006   01/30/2007   02/14/2007    07/31/2007   167
    10    01/01/2007 – 06/30/2007   07/30/2007   08/14/2007    01/18/2008   157
    11    07/01/2007 – 12/31/2007   01/30/2008   02/14/2008    02/26/2008    12
    12    01/01/2008 – 06/30/2008   07/30/2008   08/14/2008    08/17/2008    3
    13    07/01/2008 – 12/31/2008   01/30/2009   02/14/2009    02/01/2009    0
    14    01/01/2009 – 06/30/2009   07/30/2009   08/14/2009    10/14/2009    61
  Source: OIG Analysis of IDOC Progress Reports and OJP Report Submission Data

       We reviewed the last four progress reports and determined that the
reports contained information regarding actual accomplishments related to
the grant objectives. One report indicated slippage of four program
participants who were returned to an IDJJ facility. Overall there was no
reported slippage of the established objectives, and there were no reported
cost overruns or high unit costs. The grantee submitted a request to change

                                      - 24 -
the project scope, which was approved by OJP on May 1, 2008. We found
there was documentation in the case files to support the progress reports.
However, the documentation was not correlated with each of the progress
reports, and we did not attempt to match the reports with the data.

Progress Metrics Reports

       The grantee was also required to submit metrics reports, which were
due at the same time as the progress reports listed in Table 8. The metrics
reports included performance measures relating to the number of offenders:
(1) in the target population; (2) assessed or evaluated as requiring services
while incarcerated; (3) received services while incarcerated; (4) participated
in any of the service categories post-prison release; (5) employed during first
6 months post-prison release; (6) received mental health treatment;
(7) experienced substance abuse; (8) maintained stable housing conditions
post-release; (9) received faith-based organization assistance;
(10) completed the program; and (11) rearrested or incarcerated within
1 year of release from prison. We were unable to determine what information
the original Grant Administrator used to prepare these reports. We reviewed
the last four metrics reports, which were prepared by the current Grant
Administrator. Metrics report number 11 corroborated the information
provided in the corresponding progress report, which indicated IDOC was
closing down the Going Home Project. Metrics report numbers 12 through 14
contained information regarding the juvenile participants. However, we did
not review the documentation that was used to prepare these reports because
the supporting documentation for the two programs was not filed in any
organized manner. There was also no criteria that required the grantee to
maintain supporting documentation for the reports.

Program Performance and Accomplishments

      According to the award documentation, the SVORI grant program was
designed to provide funding to state and local units of government to
develop and implement an institutional and community corrections-based
offender reentry program through collaborative partnerships with
government, social service, faith-based, and community organizations to
reduce recidivism, increase public safety, and successfully reintegrate
serious and violent offenders back into the community. Reentry programs
were to be sustained for a 36-month period and were required to partner
with a state adult or juvenile correctional agency.

      The purpose of this grant was for IDOC to use grant funds to develop
and implement a serious and violent offender reentry project. The Illinois
Reentry Going Home Project focused its efforts on increasing public safety by

                                    - 25 -
reducing the rate of recidivism among 200 adult males aged 18 to 24 years,
and among 10 juveniles aged 14 to 17 years who were to be released to the
North Lawndale neighborhood and surrounding communities of Chicago.
Through the Going Home Project, IDOC partnered with various service
agencies, such as TASC and NLEN, to address the challenges of recidivism,
substance abuse, and physical and mental health, as well as to provide
support services. The Going Home Project was designed to provide
36 months of comprehensive services for offenders reentering society in a
three-phase process, which included: (1) institutionally-based programs;
(2) community-based transition; and (3) community-based long-term
support.

      The goals of the Going Home Project were to: (1) prevent repeat
offenders; (2) enhance public safety; (3) redeploy and leverage existing
community resources by fostering linkages and accessing currently provided
services within the North Lawndale area; (4) assist the offender to avoid
crime, engage in pro-social community activities, and meet family
responsibilities; and (5) ensure program sustainability. The objectives of the
award were specific to each goal and detailed the steps IDOC planned to
take to accomplish its goals.

      The current Grant Administrator told us that some but not all of the
goals and objectives had been implemented. According to an IDOC official,
the previous Grant Administrator wrote extremely detailed grant goals and
objectives that were not necessarily obtainable as written.

       The original goals and objectives as identified by grant officials were
consistent with the goals and objectives listed in the grant award
documentation, but the program objectives changed as the grant
progressed. The focus changed from the Going Home Project that targeted
adults and youths who would return to the North Lawndale neighborhood
and surrounding areas to juveniles throughout the state. When the Juvenile
Division became a separate department within the state of Illinois (the
Illinois Department of Juvenile Justice), the target population of participants
changed specifically to juvenile participants who were sex offenders and had
nowhere else to go. The new direction was to allow juveniles more
opportunities for early intervention through the use of effective strategies
and programs developed to reduce the 47 percent recidivism rate of the
juvenile population. The grantee received OJP approval to make these
significant changes to the original grant program. The goals and objectives
were similar to those in the original award, but the targeted population
changed to juveniles being paroled. IDJJ did not continue to use TASC or
NLEN when the focus of the program changed because TASC and NLEN


                                    - 26 -
focused on the Chicagoland area and the grant now included juveniles in
halfway homes throughout the state.

      Performance measure requirements were listed on the Instructions for
Completing OJP Categorical/Discretionary Assistance Progress Reports.
Performance indicators were included in the supplemental applications for
the Going Home Project, and performance measures were included in the
scope adjustment approved by OJP. In addition, the grantee agreed to
submit metrics reports and participate in a data collection process measuring
output and outcomes.

      We were unable to verify the program performance and
accomplishments because supporting documentation was not always
correlated with the required reports. In addition, as previously stated, the
original Grant Administrator was no longer employed by the state of Illinois
so we could not ask him about his methods of reporting performance and
accomplishments.

       However, it was not clear that the initial Going Home Project reduced
the recidivism rate because IDOC did not maintain statistics on the
participants. IDOC documents indicated 105 participants (or 49 percent)
were unsuccessful. 10 We reviewed criminal history information for the
214 Going Home Project participants and found that 92 participants (almost
43 percent) were either charged or convicted of new crimes in the state of
Illinois after participating in the program. Of that, 38 were in custody,
29 were on parole, 3 re-entered into the system, 4 were on work release
custody, and 18 were discharged from the IDOC system.

       We were unable to determine if the goals and objectives of the second
juvenile program were met because at the time of our fieldwork the majority
of the program participants were still in the program. The Grant
Administrator stated that as long as the participant did not violate his parole
and continued in the program, she considered the person a successful
participant.

Compliance with Grant Requirements

      We reviewed the special conditions of the grant award and two
supplements and found that IDOC was generally in compliance with the
special conditions. However, we found that the state of Illinois was not in
compliance with Special Condition Number 3, single audit reporting

       10
         IDOC, TASC or NLEN staff referred to a participant as “unsuccessful” when for
example an individual was re-arrested, dropped out, or showed no interest in class.

                                          - 27 -
requirements because the state of Illinois did not release its FY 2008 Single
Audit Report on time. The state of Illinois and separate IDOC and IDJJ
compliance and financial reports were published in August and September
2009. This was discussed in the Single Audit section of this report.

Views of Responsible Officials

      We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference. Their comments on
specific issues have been included in the appropriate sections of the report.
At the exit conference, IDOC officials expressed their concern about the
questioned costs we identified and indicated that it appeared that they had
experienced some difficulty with specific contractors.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, made in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. We identified significant weaknesses in IDOC’s internal
controls and monitoring of contractors. We also found that drawdowns did
not always match expenditures as recorded in the official accounting records
and many grant expenditures were unsupported or not listed in the
approved grant budget. Finally, we found that reports were not submitted
timely and contained inaccurate information. In total, our audit identified
$1,130,196 in dollar-related findings.

       The audited grant and supplements have recently ended. However,
we believe that the grantee needs to make improvements to its grant
management practices and procedures so that future grants are not at risk
for fraud, waste, and abuse.

Recommendations

      We recommend that the Office of Justice Programs:

1.    Require the grantee to ensure that only official accounting records are
      used to request grant drawdowns.

2.    Remedy the $187,155 in questioned costs related to the
      February 2010 drawdown for which IDOC’s accounting records did not
      provide adequate support, and ensure that the grantee reconciles the
      official accounting records to the final Financial Status Report.

                                    - 28 -
3.   Remedy the $152,367 in unallowable and unsupported non-personnel
     expenditures.

4.   Remedy the $82,655 in unallowable contractor’s indirect costs.

5.   Remedy the $708,019 in unallowable and unsupported payroll
     expenditures.

6.   Ensure that IDOC records all grant-funded accountable property in its
     property management records.

7.   Develop and implement adequate procedures for monitoring
     contractors.

8.   Ensure that the grantee develops procedures to submit timely and
     accurate required reports.




                                  - 29 -
                                                               APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, made in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures; (4) budget management and control; (5) matching
costs; (6) property management; (7) program income; (8) financial status,
progress, and metrics reports; (9) grant requirements; (10) program
performance and accomplishments; and (11) monitoring of subgrantees and
contractors. We determined that matching costs and program income were
not applicable to this grant.

       This was an audit of the Serious and Violent Offenders Reentry
Initiative grant number 2002-RE-CX-0001 (including two supplements).
Our audit concentrated on, but was not limited to, the award of the grant
on June 26, 2002, through the post-award final transaction on February 4,
2010. The IDOC had a total of $2,006,159 in drawdowns through July 30,
2009. 11 As of February 4, 2010, IDOC had drawn down $2,211,356.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

      In conducting our audit, we performed sample testing in two areas:
grant expenditures and property management. In this effort, we initially
employed a judgmental sampling designed to obtain broad exposure to
numerous facets of the grant reviewed, such as a mix of dollar amounts and
expenditure categories. Initial review of the records indicated several
transactions were not approved in OJP’s Financial Clearance Memoranda and

     11
          The grant end date was June 30, 2009.

                                         - 30 -
transactions were missing supporting documentation. As a result, we
expanded our testing to include the highest dollar value transactions and
several judgmentally selected transactions. We also included all transactions
related to TASC and NLEN because these two contractors combined
accounted for 49 percent of total federal funds received from OJP under this
grant. In addition, we reviewed all personal service contractors paid with
grant funding, 317 grant expenditures, and 20 items of accountable
equipment. This non-statistical sample design does not allow projection of
the test results to the universe from which the samples were selected.

      In addition, we reviewed all drawdowns; assessed the timeliness and
accuracy of FSRs, metrics, and progress reports; evaluated performance to
grant objectives; and evaluated the grantee’s monitoring of contractors.
However, we did not test the reliability of the financial management system
as a whole.




                                   - 31 -
                                                                 APPENDIX II


    STATE OF ILLINOIS 2008 STATEWIDE SINGLE AUDIT,
      IDOC DEPARTMENT–WIDE FINANCIAL AUDIT AND
     GENERAL OFFICE COMPLIANCE EXAMINATION, AND
        ILLINOIS DEPARTMENT OF JUVENILE JUSTICE
        GENERAL OFFICE COMPLIANCE EXAMINATION


       The state of Illinois Statewide Single Audit Report for the year ended
June 30, 2008, was released by the State of Illinois, Office of the Auditor
General, on August 11, 2009. According to the report, the State expended
$17.3 billion from federal awards in FY 2008, of which the Department of
Justice provided $74,855,000 in federal funding. The single audit report
included a matter involving internal control for the Schedule of Expenditures
of Federal Awards that was reported as a material weakness applicable to all
federal programs. It also reported on certain matters involving internal
controls over compliance that were considered significant deficiencies. In
all, the single audit report contained 97 findings, of which 58 were repeat
findings. One of the repeat findings involved multiple agencies (not IDOC)
that had a material weaknesses due to inadequate or lack of on-site
monitoring of subrecipients of federal awards. In addition, the Single Audit
Report had three findings regarding drawdowns and interest earned
(inaccurate interest liability calculations, failure to include interest calculation
methodology in the Treasury State Agreement, and failure to draw funds
only for immediate cash needs).

      We also reviewed the IDOC department-wide financial audit for the
year ended June 30, 2008, and the General Office Compliance Examination
report for the 2-year period ended June 30, 2008. The auditors reported
that IDOC’s year-end financial reporting contained numerous inaccuracies
and incomplete data. The report contained 47 findings, of which 19 were
repeat findings. Some of the findings relevant to the General Office
examination were in our opinion similar to those we found while reviewing
the SVORI grant, including inadequate controls over grant reporting,
weaknesses in contract administration, and failure to timely prepare and
submit required reports to mandated entities. Their report also discussed
IDOC and IDJJ, and it was reported that IDOC maintained the adult facility
resident portion of the Resident’s and Employee’s Benefit Fund and IDJJ
maintained the juvenile resident facility portion and both used one
consolidated bank account and commingled their financial activities in the
general ledger. The independent auditors reported that IDOC and IDJJ were
two separate and distinct agencies whose funds should not be commingled,
especially without adequate accounting records and adequate supporting
documentation.

                                      - 32 -
       In addition, we reviewed the IDJJ’s General Office Compliance
Examination report for the 2-year period ended June 30, 2008. This report
contained 25 findings and 4 of the findings were considered to be material
weaknesses in IDJJ’s internal controls. Several of the 25 findings that were
reported were similar to the conditions we found, including: (1) inaccurate
and inadequate equipment and capital asset records; (2) inadequate controls
over grant reporting; (3) timesheets not submitted in compliance with the
State Officials and Employees Ethics Act; (4) failure to maintain required
personnel and payroll documentation; (5) weaknesses in contract
administration; (6) inadequate control over voucher processing; and
(7) failure to timely prepare and submit required reports to mandated
entities.

       Finally, both IDOC and IDJJ Compliance Examination reports contained
a finding that the departments failed to provide requested engagement
documentation in a timely manner or at all and there was a lack of
cooperation during the audit.




                                   - 33 -
                                                                               APPENDIX III

    EXPENDITURES PER OFFICIAL ACCOUNTING AND
 UNOFFICIAL ACCOUNTING RECORDS BY OJP DRAWDOWN
                                                                          GRANT EXPENDITURES
                                                    GRANT EXPENDITURES         PER GRANT
                                                       PER OFFICIAL          ACCOUNTANT’S
       DATE OF DRAWDOWN         AMOUNT DRAWN PER
                                                       ACCOUNTING             UNOFFICIAL
            PER OJP                   OJP
                                                       RECORDS FOR            ACCOUNTING
                                                    DRAWDOWN PERIOD          RECORDS PER
                                                                          DRAWDOWN PERIOD 12
             7/9/2003                   $ 27,371              $ 26,396                26,526
             8/22/2003                    69,353                  1,240               58,402
             2/24/2004                    43,483                 84,278              126,046
             5/12/2004                    92,340                 93,140               73,133
             7/20/2004                    90,460                 53,753               53,489
             11/3/2004                    67,669                 75,196               85,084
             3/2/2005                    281,924                124,116               81,299
                           13
            10/21/2005                   (71,706)                     -                    -
             11/4/2005                    81,285                204,188              265,552
             2/15/2006                   172,055                159,286              162,102
             5/1/2006                    124,971                139,133               82,266
             7/24/2006                    95,435                113,745              193,724
             11/1/2006                    91,880                106,333               90,747
             1/5/2007                    170,583                 85,990               78,657
             4/5/2007                    200,000                147,832              161,062
             9/10/2007                    69,865                155,511              146,120
             3/5/2008                      6,000                   611                  611
             8/20/2008                     2,500                      -                    -
             9/18/2008                     7,500                  5,527               16,700
             11/3/2008                    17,643                 21,506               10,333
             2/3/2009                     55,594                 55,594              101,229
             3/18/2009                   100,000                131,856               69,461
             4/22/2009                    69,000                 37,407                    -
             6/24/2009                    60,753                 82,227                    -
             7/24/2009                    80,200                119,336                    -
                      14
              Total                   $2,006,159           $2,024,200            $1,882,543




       12
           This chart depicts the difference between the OJP drawdowns and the Grant
Accountant’s unofficial accounting records. The OJP draw down date does not necessarily
reflect the same dates as those reflected in the Grant Accountant’s unofficial accounting
records.
       13
           IDOC refunded $71,706 on October 21, 2005. According to the Grant Accountant,
this refund was made because they realized that they previously requested funds from OJP for
expenses that were not approved.
       14
            Differences in total amounts are due to rounding.

                                               - 34 -
                                                                      APPENDIX IV


           QUESTIONED NON-PAYROLL EXPENDITURES
                                            UNSUPPORTED       UNAPPROVED   QUESTIONED
               CATEGORY
                                               COSTS            COSTS        COSTS
Residential (Other Contractors):
   Children’s Home Association                   $16,760              $0      $16,760
   Fresh Start                                       930               0          930
   Henry’s Sober Living                            1,404               0        1,404
   Institute for Clinical                          1,861               0        1,861
   Social Workers
   Nexxus                                            20,491            0       20,491

   Residential (Other Contractors) Totals        $41,446               0      $41,446
NLEN:
  Travel                                             $1,153           $0       $1,153
  Equipment                                           7,394        7,394        7,394
  Initial Placement Fee                              30,300            0       30,300
  30-Day Placement Fee                               12,500            0       12,500
  90-Day Placement Fee                                1,300            0        1,300
  Drug Testing                                          135            0          135
  Anger Management                                   11,128            0       11,128
  Right Thinking Class                                5,250            0        5,250
  Working it Out                                      5,500            0        5,500
  Getting the Edge                                    1,750            0        1,750
  Gear up Workshop                                    6,000            0        6,000
  Getting the Grasp It Workshop                         750            0          750
  Ready for Work                                        500            0          500
  Job Center Rental to IDOC                          10,250       10,250       10,250
  Church Rental Sinai                                   800            0          800
  Seminar Materials                                     829            0          829
  Clothing Incentive                                  1,350            0        1,350

                             NLEN Totals         $96,889         $17,644      $96,889

TASC:
  Travel                                             $6,271           $0       $6,271
  Training                                            2,332        3,068        3,068
  Commodities                                           962            0          962
  Equipment                                           2,131            0        2,131
  Recruitment                                         1,600        1,600        1,600

                             TASC Totals         $13,296          $4,668      $14,032
              Grand Totals                     $151,631         $22,312     $152,367




                                            - 35 -
                                                                         APPENDIX V




      EXCESS EXPENDITURES OVER APPROVED BUDGET
                                           OJP APPROVED     AMOUNT         EXCEEDS OJP
            COST CATEGORY                     BUDGET       CHARGED TO       APPROVED
                                           (GAN NO. 20)    THE AWARD       CATEGORIES
Personnel                                              -             -                -
Fringe Benefits                                        -             -                -
Travel (IDOC)                                   $36,171        $42,861         ($6,690)
Equipment (IDOC)                                  6,794          5,798              N/A
Supplies (IDOC)                                   3,845          2,836              N/A
Construction                                           -             -                -
                                                      15
Contract/Consultant                                13
 Placement Resources:                           421,860
 (various contractors listed)
                                 Actual:
           Initial Job Placement (NLEN)                         33,800
              30-Day Placement (NLEN)                           13,000
              90-Day Placement (NLEN)                            1,300
         Various Contractors Housing &          151,138        598,897         (73,986)
                              Treatment
  Substance Abuse Treatment:                    242,338
  (various contractors listed)
              Actual: Drug Test (NLEN)                           1,200              N/A
  Mental Health Treatment:                       20,000              -              N/A
  NLEN - Salaries/Benefits                      291,164        491,204        (200,040)
  NLEN Modules:                                  56,200
    Anger Management Class                                      18,317
    Right Thinking Class                                        10,250
    Working It Out Class                                        10,250
    Getting the Edge                                             2,500
    Gear Up Workshop                                             6,000
    Getting the Grasp It Class                                     750
    Ready For Work Class                                         1,000
    Job Center Office Space                                     10,250
    United Baptist Church                                       12,117
    Mt. Sinai Office Space                                         800
    Seminar Materials                                              927         (16,961)
  BAJR                                           43,190              -              N/A
  Chicago Project                               133,875              -              N/A
  TASC - Salaries                               273,153        235,217              N/A
  TASC – Supplement 1                            43,750              -                -
  TASC - Travel                                   1,488         10,039          (8,551)
  TASC - Equipment                                3,350          8,487          (5,137)
  TASC - Supplies                                 3,600          8,562          (4,962)
  TASC - Indirect Costs                           7,481         90,136         (82,655)
  Personal Service Contracts                    304,966        366,092         (61,126)


      15
           The summary amounts approved in the Financial Clearance Memoranda did not
reconcile to the detail in the narratives. As a result, we adjusted the amount by $13.

                                           - 36 -
                                         OJP APPROVED        AMOUNT         EXCEEDS OJP
            COST CATEGORY                   BUDGET          CHARGED TO       APPROVED
                                         (GAN NO. 20)       THE AWARD       CATEGORIES
                Not Authorized by OJP:
                         NLEN – Travel                             2,057          (2,057)
                                                        -
                     NLEN – Equipment                              7,394          (7,394)
                                                        -
                       TASC – Training                             3,068          (3,068)
                                                        -
                   TASC – Recruitment                              1,600          (1,600)
                                                        -
                      IDOC Advertising                             2,096          (2,096)
  Other Costs (IDOC)                               32,293         21,545              N/A
   Housing Allowance                                                   -              N/A
   Utilities                                                           -              N/A
   Emergency Housing                                                   -              N/A
   Program Transportation                                              -              N/A
   Work Transportation                                                                N/A
        (Actual Transportation - NLEN)                             2,336              N/A
   Clothing                                                            -              N/A
              (Actual Clothing – NLEN)                             1,350              N/A
   Stipends                                                            -              N/A
   IDA                                                                 -              N/A
                   (Actual IDA – NLEN)                                 -              N/A
   Copy Machine                                                                       N/A
                                                                                        16
                                 TOTAL     $2,365,461       $2,024,200             N/A




      16
         We have questioned the majority of these transactions as unapproved costs in the
Grant Expenditures section of this report.

                                          - 37 -
                                                                          APPENDIX VI


            SCHEDULE OF DOLLAR-RELATED FINDINGS


                                                                 AMOUNT          PAGES

QUESTIONED COSTS: 17

Unsupported Post-Award Drawdown                                   $187,155              10

Non-personnel Expenditures
     Unapproved Costs ($22,312)
     Exceeded Approved Budget ($18,650)
     Unsupported Transactions ($151,631)                           152,367          11-13


Contractor’s Indirect Costs Exceeding
                                                                     82,655         13-14
Approved Budget


Contractors’ Personnel Expenditures                                708,019          14-17
     Unapproved Positions ($518,905)
     Unsupported Transactions ($398,430)


TOTAL DOLLAR-RELATED FINDINGS:                                $1,130,196




Questioned Costs are monies spent that, at the time of the audit, do not comply with legal
requirements, or are unsupported, or are unnecessary or unreasonable. They can be
recoverable or non-recoverable.




       17
            The unapproved expenditures, expenditures reimbursed in excess of approved
amounts, and the unsupported expenditures do not add up to the unallowable expenditure
totals because several expenditures were unsupported as well as unapproved. Instead of
double counting these expenditures we counted each one once to come up with a questioned
cost total.

                                          - 38 -
                                                                                    APPENDIX VII


                                   AUDITEE RESPONSE




                                            August 17, 2010


Ms. Carol S. Taraszka, Regional Audit Manager
Office of the Inspector General
Chicago Regional Audit Office
500 West Madison Street, Suite 1121
Chicago, Illinois 60661

Dear Ms. Taraszka:

The Serious and Violent Offender Reentry Initiative (SVORI) grant awarded by the Office of Justice
Programs (OJP), Bureau of Justice Assistance (BJA) provided the Illinois Department of Corrections
(IDOC) the opportunity to implement a variety of comprehensive services for offenders reentering
society. The IDOC is committed to administering this and all other grants with the utmost efficiency and
effectiveness and in accordance with applicable laws, regulations, guidelines, and terms and conditions of
the grant. The IDOC, as such, provides the following responses to the Draft Audit Report dated July 29,
2010 related to the SVORI grant awarded to IDOC under grant number 2002-RE-CX-0001.

    1. The Illinois Department of Corrections (IDOC) concurs. The IDOC has emphasized the
       importance to staff of creating and maintaining only official accounting records. The IDOC will
       ensure that only official accounting records are utilized to request grant drawdowns and, as such,
       requests this recommendation be closed.

    2. The Illinois Department of Corrections (IDOC) concurs. The IDOC will work closely with the
       Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA) to remedy the $187,155 in
       questioned costs related to the February 2010 drawdown. Adequate support will be provided and
       the official accounting records will be reconciled to the final Financial Status Report. Estimated
       implementation date: December 31, 2010.

    3. The Illinois Department of Corrections (IDOC) concurs. The IDOC will work closely with the
       Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA) to remedy the $152,367 in
       questioned costs related to the non-personnel expenditures. Estimated implementation date:
       December 31, 2010.

    4. The Illinois Department of Corrections (IDOC) concurs. The IDOC will work closely with the
       Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA) to remedy the $82,655 in
       questioned costs related to contractor’s indirect costs. Estimated implementation date: December
       31, 2010

                                                 - 39 -
Ms. Carol S. Taraszka, Regional Audit Manager                                                       Page 2
August 17, 2010


      5. The Illinois Department of Corrections (IDOC) concurs. The IDOC will work closely with the
         Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA) to remedy the $708,019 in
         questioned costs related to payroll expenditures. Estimated implementation date: December 31,
         2010.

      6. The Illinois Department of Corrections (IDOC) concurs. The IDOC is requiring staff to properly
         record all grant-funded accountable property in the appropriate property management records
         and, as such, requests this recommendation be closed.

      7. The Illinois Department of Corrections (IDOC) concurs. The IDOC has developed and
         implemented adequate procedures for monitoring contractors. Staff are required to ensure
         appropriate records are maintained and supporting documentation is readily available for review
         and, as such, requests this recommendation be closed.

      8. The Illinois Department of Corrections (IDOC) concurs. The IDOC has procedures in place to
         ensure that required reports are submitted timely and accurately. The IDOC has emphasized the
         importance and will ensure that staff follow these established procedures and, as such, requests
         this recommendation be closed.

As stated previously, the Illinois Department of Corrections (IDOC) is committed to ensuring the grant
process is administered and conducted appropriately and accurately. The IDOC will implement the
appropriate corrective action(s) necessary to address and remedy any outstanding issues at the conclusion
of the audit as identified in the final report. If you have any questions or concerns, please feel free to
contact Brett A. Finley, Chief Internal Auditor, at (217) 558-2200, extension 4485.

                                                  Sincerely,



                                                  Michael P. Randle
                                                  Director

cc:       Jeffery A. Haley, Deputy Director, Office of Audit, Assessment & Management
          Linda J. Taylor, Lead Auditor, Office of Audit, Assessment, & Management
          Christina Davis-Wade, Audit Liaison Specialist, Office of Audit, Assessment & Management
          Gladyse C. Taylor, Acting Assistant Director, IDOC
          Brett A. Finley, Chief Internal Auditor, IDOC
          Bryan Gleckler, Chief Financial Officer, IDOC




                                                  - 40 -
                                                                           APPENDIX VIII



             OFFICE OF JUSTICE PROGRAMS RESPONSE

                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                 Office of Audit, Assessment, and Management



                                                 Washington, D.C. 20531




August 26, 2010


MEMORANDUM TO:               Carol S. Taraszka
                             Regional Audit Manager
                             Office of the Inspector General
                             Chicago Regional Audit Office

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             Bureau of Justice Assistance, Grant Awarded to the Illinois
                             Department of Corrections, Springfield, Illinois

This memorandum is in response to your correspondence, dated July 29, 2010, transmitting the
subject draft audit report for the Illinois Department of Corrections (IDOC). We consider the
subject report resolved and request written acceptance of this action from your office.

The report contains eight recommendations and $1,130,196 in questioned costs. The following
is the Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

1.     We recommend that OJP require the grantee to ensure that only official accounting
       records are used to request grant drawdowns.

       We agree with the recommendation. We will coordinate with the IDOC to obtain a copy
       of implemented procedures to ensure that only official accounting records are used to
       request grant drawdowns.



                                            - 41 -
2.   We recommend that OJP remedy the $187,155 in questioned costs related to the
     February 2010 drawdown for which IDOC’S accounting records did not provide
     adequate support, and ensure that the grantee reconciles the official accounting
     records to the final Financial Status Report.

     We agree with the recommendation. We will coordinate with the IDOC to remedy the
     $187,155 in questioned costs related to the February 2010 drawdown for which IDOC’S
     accounting records did not provide adequate support, and ensure that the grantee
     reconciles the official accounting records to the final Financial Status Report.

3.   We recommend that OJP remedy the $152,367 in unallowable and unsupported
     non-personnel expenditures.

     We agree with the recommendation. We will coordinate with the IDOC to remedy the
     $152,367 in unallowable and unsupported non-personnel expenditures.

4.   We recommend that OJP remedy the $82,655 in unallowable contractor’s indirect
     costs.

     We agree with the recommendation. We will coordinate with the IDOC to remedy the
     $82,655 in unallowable contractor’s indirect costs.

5.   We recommend that OJP remedy the $708,019 in unallowable and unsupported
     payroll expenditures.

     We agree with the recommendation. We will coordinate with the IDOC to remedy the
     $708,019 in unallowable and unsupported payroll expenditures.

6.   We recommend that OJP ensure that IDOC records all grant-funded accountable
     property in its property management records.

     We agree with the recommendation. We will coordinate with the IDOC to obtain a copy
     of implemented procedures ensuring that all grant-funded accountable property items are
     recorded in IDOC’s property management records.

7.   We recommend that OJP develop and implement adequate procedures for
     monitoring contractors.

     We agree with the recommendation. We will coordinate with the IDOC to develop and
     implement adequate procedures for monitoring its contractors.

8.   We recommend that OJP ensure that the grantee develops procedures to submit
     timely and accurate required reports.
     We agree with the recommendation. We will coordinate with the IDOC to obtain a copy
     of implemented procedures developed to ensure that required reports are accurate and
     timely submitted.

                                         - 42 -
We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management
cc:    Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Judy Poston
       Program Manager
       Bureau of Justice Assistance

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20101638




                                            - 43 -
                                                                APPENDIX IX


     OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
           SUMMARY OF ACTIONS NECESSARY TO
                    CLOSE THE REPORT

      We provided the Illinois Department of Corrections (IDOC) and Office
of Justice Programs (OJP) our draft audit report for review and comment.
The response that we received from the IDOC has been incorporated into
our report as Appendix VII, and the response that we received from OJP has
been incorporated into our report as Appendix VIII. In our analysis below,
we respond to any relevant comments and detail the actions necessary to
close each of the recommendations.

Recommendation Number:

1.    Resolved. In response to the draft report, OJP agreed with the
      recommendation and will coordinate with IDOC to obtain a copy of
      implemented procedures to ensure that only official accounting records
      are used to request grant drawdowns. The grantee stated that IDOC
      management met with the accounting staff on August 12, 2010, to
      emphasize the importance of creating and maintaining only official
      accounting records and to ensure that only those records are used to
      request grant drawdowns.

      To close this recommendation, please provide us with a copy of the
      implemented procedures to ensure that only official accounting records
      are used to request grant drawdowns.

2.    Resolved. In response to the draft report, OJP agreed with the
      recommendation and will coordinate with IDOC to remedy the
      questioned costs related to the February 2010 drawdown and ensure
      that the grantee reconciles the official accounting records to the final
      Financial Status Report. IDOC stated that it will work closely with
      OJP/BJA to remedy the $187,155 in questioned costs. Specifically,
      IDOC stated that adequate support will be provided and the official
      accounting records will be reconciled to the final Financial Status




                                     - 44 -
     Report and anticipates completion by approximately December 31,
     2010.

     To close this recommendation, please provide us with evidence that
     the $187,155 in questioned costs has been appropriately remedied.

3.   Resolved. In response to the draft report, OJP agreed with the
     recommendation and will coordinate with IDOC to remedy the
     questioned costs. In its response, IDOC stated that it will work closely
     with OJP to remedy the $152,367 in questioned costs related to the
     non-personnel expenditures and anticipates completion by
     approximately December 31, 2010.

     To close this recommendation, please provide us with evidence that
     the $152,367 in unallowable and unsupported non-personnel
     expenditures has been appropriately remedied.

4.   Resolved. In response to the draft report, OJP agreed with the
     recommendation and stated that it will coordinate with IDOC to
     remedy the unallowable contractor’s indirect costs. IDOC stated that it
     will work with OJP/BJA to remedy the $82,655 in questioned costs
     related to the contractor’s indirect costs.

     To close this recommendation, please provide us with evidence that
     the $82,655 in unallowable contractor’s indirect costs has been
     appropriately remedied.

5.   Resolved. In response to the draft report, OJP agreed with the
     recommendation and will coordinate with IDOC to remedy the
     unsupported payroll expenditures. IDOC stated that it will work
     closely with OJP/BJA to remedy the $708,019 in questioned costs
     related to payroll expenditures.

     To close this recommendation, please provide us with evidence that
     the $708,019 in unallowable and unsupported payroll expenditures has
     been appropriately remedied.

6.   Resolved. In response to the draft report, OJP agreed with the
     recommendation and will coordinate with IDOC to obtain a copy of
     implemented procedures ensuring that all grant-funded accountable
     property items are recorded in IDOC’s property management records.
     IDOC stated that it is requiring staff to properly record all grant-funded
     accountable property in the appropriate property management
     records. The grantee also provided (under separate cover) IDOC

                                   - 45 -
     Administrative Directive 02.28.120, Grant Accounting and Fiscal
     Activity, which indicates all property control procedures shall be the
     same as those for Property Control and Vehicles Directives in Sections
     02.70 and 02.75.

     To close this recommendation, please provide IDOC Administrative
     Directives 02.70 and 02.75 and supporting documentation that shows
     IDOC recorded all grant-funded accountable property in its property
     management records.

7.   Resolved. In response to the draft report, OJP agreed with the
     recommendation and will coordinate with IDOC to develop and
     implement adequate procedures for monitoring contractors. In its
     response, IDOC stated that it has developed and implemented
     adequate procedures for monitoring contractors and provided (under
     separate cover) IDOC’s Administrative Directive 02.20.182, Contract
     Monitoring. This Directive broadly defines the responsibilities for
     monitoring services rendered and discusses the monitoring process
     and reporting procedures.

     To close this recommendation, please provide evidence that IDOC’s
     procedures are being implemented.

8.   Resolved. In response to the draft report, OJP agreed with the
     recommendation and will coordinate with IDOC to obtain a copy of
     implemented procedures developed to ensure that the required reports
     are accurate and timely submitted. IDOC stated that it has procedures
     in place to ensure that required reports are submitted timely and
     accurately, and will ensure that staff follow these established
     procedures. IDOC also provided (under separate cover) Administrative
     Directive 02.50.101, Requests for Grants, that states the program
     manager shall ensure all state and federal requirements of the grant
     are met, including preparation of monthly or quarterly program
     reports. However, this directive does not discuss the accuracy and
     timeliness of reports.

     To close this recommendation, please provide evidence that the
     grantee developed and implemented procedures to ensure that it
     submits timely and accurate required reports.




                                  - 46 -
